OIG Audit Report GR-60-07-009

Office of Justice Programs 
Southwest Border Prosecution Initiative Funding Received by The San Diego County District Attorneys Office, San Diego, California

Audit Report GR-60-07-009


Month 2007
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP) to the San Diego County District Attorney’s Office (San Diego County). As of March 9, 2007, San Diego County had received SWBPI funding totaling $18,003,270. 
 Many drug and other criminal cases occurring along the southwest border are initiated by a federal law enforcement agency or multi‑jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF). Many U.S. Attorneys, including the U.S. Attorney for the Southern District of California, have developed prosecution guidelines which govern the most common violations of federal law. These prosecution guidelines are used by law enforcement agencies to determine whether to file a case in federal, state, or county court. As a result, many federally initiated cases occurring near the southwest border are referred to the state or county for prosecution. 
 The SWBPI was established in Fiscal Year (FY) 2002, when Congress began appropriating funds to reimburse State, county, parish, tribal, and municipal governments for costs associated with the prosecution of criminal cases declined-referred by local U.S. Attorneys’ offices. Reimbursements received from SWBPI funding may be used by applicant jurisdictions for any purpose not otherwise prohibited by federal law. For FY 2006, Congress appropriated $30 million for the SWBPI.
The objective of our audit was to determine if the SWBPI reimbursements received by San Diego County were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI.
 We found that San Diego County claimed and was reimbursed for cases that were ineligible under the SWBPI guidelines. Based on the deficiencies listed below, we identified questioned costs totaling $288,041.1 Specifically, we found that San Diego County: 

 Received reimbursements totaling $69,116 for 12 cases which were not federally initiated.
 Received excess reimbursements totaling $56,250 for 15 cases which were claimed under the both prosecution and pre-trial detention category, but should have been claimed as prosecution only because the defendant was not held overnight. 
 Received unallowable reimbursements totaling $36,250 for eight cases that were not resolved in the application period for which the cases were submitted. 
 Received reimbursements totaling $23,779 for eight cases with incomplete case files; including missing dates cases were opened, missing resolution dates, missing sheriff release dates, missing information regarding whether a case was federally declined and referred, and missing information regarding whether a case was prosecuted by a state or local prosecutor. 
Received reimbursements totaling $5,000 for one case which was claimed twice for reimbursement.
Received excess reimbursement totaling $4,415 for four cases that were erroneously submitted in the wrong disposition category.
Received unsupported reimbursements totaling $3,231 for one case for which the supporting case file could not be located. 
Received excess reimbursements totaling $90,000 in FY 2004 for 12 cases that were not supported by the master case listing, which were submitted to OJP for reimbursement erroneously.

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit Objectives, Scope, and Methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use. 








Return to OIG Home Page